No. 20-1357
IN THE

'upreme Court of Me Mutter% Otatto
BOARD OF COUNTY COMMISSIONERS,
WELD COUNTY, COLORADO,

Petitioner,
v.
LAURIE EXBY-STOLLEY,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,984 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 8, 2021.

e

Colin Casey([Mogan
Wilson-Epes Printing Co., Inc.

